IN THE SUPREME COURT OF THE UNITED STATES
JEREME EUGENE MACKEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PURSUANT TO Rule 39 of the Rules of the Supreme Court of the United
States, Petitioner, JEREME EUGENE MACKEY, asks leave to file the accompanying
Petition for Writ of Certiorari to the Fourth Circuit Court of Appeals without
payment of costs and to proceed in forma pauperis and in support thereof states:
1.

The Petition for Certiorari in the form prescribed by Rule 14 of the
Rules of this Court, with Appendix attached, is submitted for filing
along with this Motion.

2.

Petitioner was determined to be indigent by the Fourth Circuit Court
of Appeals and U.S. District Court and counsel was appointed by the
Fourth Circuit Court of Appeals pursuant to U.S.C. ยง 3006A or statute
in which counsel was appointed.
Respectfully Submitted,
JEREME EUGENE MACKEY
_/s/Jennifer Haynes Rose
Jennifer HaynesRose
Counsel of Record
1135 KILDAIRE FARM ROAD, Ste 200
Cary, NC 27511
(919) 415-4719

August 13, 2021

USCA4 Appeal: 19-4594

Doc: 5-1

Filed: 08/20/2019

Pg: 1 of 2

FILED: August 20, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19-4594
(5:18-cr-00317-FL-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
JEREME EUGENE MACKEY, a/k/a Cash
Defendant - Appellant
___________________
ORDER
___________________
The court grants the motion to withdraw as counsel on appeal.
The court appoints Jennifer Haynes Rose to represent jereme Eugene
Mackey on appeal. Counsel is referred to the CJA Payment Memorandum and
the CJA eVoucher Page for information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24

USCA4 Appeal: 19-4594

Doc: 5-1

Filed: 08/20/2019

Pg: 2 of 2

voucher for transcript payment. Counsel must also submit a Transcript Order Form
to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use in
maintaining time and expense records and paying for expert services.
In light of this appointment, appellate counsel is granted access to sealed
district court material, with the exception of ex parte or in camera material. Any
transcripts or record material sent to prior counsel shall be provided by prior
counsel to newly appointed counsel. If record items are not available from former
counsel, new counsel should contact the Fourth Circuit Appointments Deputy for
assistance in obtaining these items.
The court having appointed new counsel for purposes of this appeal, any
motion for further substitution of counsel shall be disfavored.
For the Court--By Direction
/s/ Patricia S. Connor, Clerk

